               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Industry, CA
     Processing and Distribution Center
       Originating Mail Consolidation

                       Audit Report




                                              October 17, 2011

Report Number NO-AR-12-002
                                                                         October 17, 2011

                                              Industry, CA Processing and Distribution
                                                 Center Originating Mail Consolidation

                                                          Report Number NO-AR-12-002



IMPACT ON:
Mail processing operations in the Santa        We also found that service impacts to
Ana District of the Pacific Area.              Priority Mail® and package services
                                               were incorrectly included in the study.
WHY THE OIG DID THE AUDIT:
We performed this review as a result of        WHAT THE OIG RECOMMENDED:
a congressional request to examine the         We are making no recommendations as
proposed consolidation of originating          the findings support a consolidation and
letter and flat mail processing operations     AMP guidelines were generally followed.
from the Industry, CA Processing and           During the audit, management took
Distribution Center (P&DC) into the            corrective action to exclude Priority Mail
Santa Ana, CA P&DC. Our objectives             and package services from the study.
were to determine whether a business
case exists to support the consolidation       WHAT MANAGEMENT SAID:
and assess compliance with established         Management agreed with our finding
area mail processing (AMP) guidelines.         that there is a business case to support
                                               the consolidation.
WHAT THE OIG FOUND:
There is a business case to support the        AUDITORS’ COMMENTS:
consolidation, which will result in cost       Although the report does not contain
savings of approximately $1.32 million         any recommendations, the U.S. Postal
annually. Our analysis also indicated          Service Office of Inspector General
that (1) adequate machine and facility         (OIG) considers management’s
capacity exists to process mail at the         comments responsive.
gaining facility, (2) customer service will
be minimally impacted, (3) no career           Link to review the entire report
employees will be laid off at either
location, although there may be some
reassignments, (4) the Santa Ana P&DC
is more efficient and processes its mail
volumes at a higher productivity level
than Industry P&DC, and (5) AMP
guidelines were generally followed. We
noted that management did not meet
one AMP timeline, which had no impact
on the business case.
October 17, 2011

MEMORANDUM FOR:           DREW T. ALIPERTO
                          VICE PRESIDENT, OPERATIONS PACIFIC AREA

                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                          for Mission Operations

SUBJECT:                  Audit Report – Industry, CA Processing and Distribution
                          Center Originating Mail Consolidation
                          (Report Number NO-AR-12-002)

This report presents the results of our audit of the Industry, CA Processing and
Distribution Center Originating Mail Consolidation (Project Number 11XG043NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    David E. Williams, Jr.
    Frank Neri
    Gerard K. Ahern
    Corporate Audit and Response Management
                                                      Table of Contents

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Capacity ............................................................................................................................... 2

Customer Service ................................................................................................................ 7

Employee Impact ............................................................................................................... 13

Efficiency ........................................................................................................................... 14

Saturday Consolidation Effect........................................................................................... 14

Cost Savings...................................................................................................................... 17

AMP Guidelines ................................................................................................................. 17

Management’s Comments ................................................................................................ 19

Evaluation of Management’s Comments .......................................................................... 19

Appendix A: Additional Information................................................................................... 20

   Background .................................................................................................................... 20

   Objectives, Scope, and Methodology ........................................................................... 21

   Prior Audit Coverage ..................................................................................................... 23

Appendix B: Management’s Comments ........................................................................... 25
Industry, CA Processing and Distribution Center                                   NO-AR-12-002
 Originating Mail Consolidation



Introduction

This report presents the results of our audit of the Industry, CA Processing and
Distribution Center (P&DC) originating mail 1 consolidation into the Santa Ana, CA,
P&DC (Project Number 11XG043NO000). The report responds to a congressional
request. Our objectives were to determine whether a business case exists to support
the consolidation and assess compliance with established Area Mail Processing (AMP)
guidelines. The audit addresses operational risk. See Appendix A for additional
information about this audit.

Conclusion

A valid business case exists to consolidate originating mail processing operations from
the Industry P&DC to the Santa Ana P&DC to achieve cost savings of approximately
$1.32 million annually. Our analysis also indicated that:

     Adequate machine and facility capacity exists to process mail at the gaining facility.

     Customer service will be minimally impacted.

     No career employees will be laid off at either location, although there may be some
      reassignments.

     The Santa Ana P&DC is more efficient and processes its mail volume at a higher
      productivity level than the Industry P&DC.

     AMP guidelines were generally followed and one timeline was exceeded, but this
      had no impact on the business case.

We also found that service impacts to Priority Mail and package services were
incorrectly included in the AMP study. During our audit, management took corrective
action and excluded these two service classes. Because there is a business case
supporting the consolidation, we are not making any recommendations in this report.




1
    The P&DC where the mail piece enters the mail stream.
                                                            1
Industry, CA Processing and Distribution Center                                                                NO-AR-12-002
 Originating Mail Consolidation


Capacity

Adequate facility and machine capacity exists at the Santa Ana P&DC to process the
mail volume coming from the Industry P&DC. The outgoing mail volume that would be
transferred from the Industry P&DC was approximately 168 million pieces, or 11 percent
of the Santa Ana P&DC’s total First-Handling Pieces (FHP) volume during the AMP
review period of July 1, 2001, through June 30, 2010 (see Chart 1).


                           Chart 1: Proposed Santa Ana P&DC FHP Volume
                    1,800,000,000

                    1,700,000,000
                                                      168,177,278
                    1,600,000,000

                    1,500,000,000
                                                                                        Transferred from
                                                                                        Industry
                    1,400,000,000
                                                                                        Santa Ana
                    1,300,000,000                    1,573,736,646

                    1,200,000,000

                    1,100,000,000

                    1,000,000,000


The outgoing mail volume to be transferred is made up of 93 percent letters and
7 percent flats mail. The Industry P&DC will still process packages and Priority Mail.
The added volume will help offset the 15 percent volume decline at Santa Ana P&DC
that has occurred over the past 5 years. 2 The Santa Ana P&DC should be able to easily
absorb the additional 168 million pieces in volume from the Industry P&DC, as it has
processed much more volume in the past (see Chart 2).




2
    Mail declined from 1.9 billion mailpieces in fiscal year (FY) 2005 to 1.6 billion mailpieces in FY 2010.


                                                               2
Industry, CA Processing and Distribution Center                                                  NO-AR-12-002
 Originating Mail Consolidation



                               Chart 2: Santa Ana P&DC FHP Volume
                                          FYs 2005–2010 3




                                                                                                           15%




     Floor Space. The Santa Ana P&DC has sufficient floor space to accommodate the
      additional Advanced Facer Canceller System (AFCS) to be transferred from the
      Industry P&DC. The Santa Ana P&DC also has adequate staging areas for
      processing additional mail volume.

     Dock Capacity. The Santa Ana P&DC has adequate dock door capacity for the
      arrival of originating mail from the Industry P&DC. The Santa Ana P&DC has
      44 dock doors, many of which are not fully utilized (see Illustrations 1 and 2).




3
    Volume increased at the Santa Ana P&DC in FY 2010 due to consolidation of mail from Long Beach P&DC.


                                                        3
Industry, CA Processing and Distribution Center                             NO-AR-12-002
 Originating Mail Consolidation


                 Illustration 1: The Santa Ana P&DC has 44 dock doors.




                         Source: OIG photograph taken July 30, 2011.

                    Illustration 2: The Santa Ana P&DC incoming dock
                                      was uncongested.




                  Source: OIG photograph taken July 26, 2011 at 7:09 p.m.




                                                  4
Industry, CA Processing and Distribution Center                                       NO-AR-12-002
 Originating Mail Consolidation



   Machine Capacity. The Santa Ana P&DC has sufficient machine capacity to process
    the combined Industry P&DC originating letter and flat mail. In fact, the Santa Ana
    P&DC will have additional excess capacity on all mail processing equipment after
    the consolidation. For example, the Santa Ana P&DC could handle up to about
    56,462,000 additional flats per year and as much as 493,618,000 additional letter
    cancellations per year (see Table 1).

                        Table 1: Santa Ana P&DC Machine Capacity
                                                  Proposed
                                                   Annual                 Proposed
                                                  Maximum     Combined     Excess
                   Existing       Proposed        Capacity    Proposed    Capacity     Proposed
                  Equipment       Equipment        Volume      Volume      Volume       Excess
  Equipment         Count           Count           (000)       (000)       (000)      Capacity
   Advanced
  Flat Sorting
   Machine
    (AFSM)              4              4          251,100      194,638     56,462         22%
 Delivery Input
     Output
  SubSystem
   (DIOSS)              8              10         1,041,600    343,268    698,332         67%

     AFCS              11              14         889,526      395,909    493,618         55%
  Delivery Bar
  Code Sorter
    (DBCS)             44              44         5,657,190   2,213,715   3,443,475       61%
 DBCS Output
   SubSystem
 (DBCS-OSS)
   Capabilities        10              10         1,269,450    241,750    1,027,700       81%
   Combined
  Input Output
   SubSystem            2              2          195,300      93,211     102,089         52%

Our observations corroborated that excess capacity exists due to low mail volume (see
Illustrations 3-5).




                                                    5
Industry, CA Processing and Distribution Center                               NO-AR-12-002
 Originating Mail Consolidation


                              Illustration 3: Santa Ana P&DC
                       Eight AFCSs were running and three were idle.




                    Source: OIG photograph taken July 28, 2011 at 6:19 p.m.

                              Illustration 4: Santa Ana P&DC
                          Seven of eight DIOSS machines were idle.




                  Source: OIG photograph taken July 28, 2011 at 6:45 p.m.




                                                  6
Industry, CA Processing and Distribution Center                                                           NO-AR-12-002
 Originating Mail Consolidation


                                     Illustration 5: Santa Ana P&DC
                                    One of four AFSM 100s was idle.




                     Source: OIG photograph taken July 26, 2011 at 7:23 p.m.


Customer Service

Customer service will be minimally impacted. We reviewed three measures of customer
service: the External First-Class (EXFC) 4 measurement system, the Customer
Experience Measurement System (CEMS), 5 and the projected service standard
upgrades and downgrades. 6 We also reviewed the 24-hour clock indicators for both
P&DCs. As of FY 2011 Year-to-Date (YTD) Week 39, the Santa Ana P&DC had
difficulty meeting the “trips on time to delivery units” 24-hour clock indicator; however, it
had minimal impact on their EXFC service scores.




4
  The EXFC is “a system whereby a contractor performs independent service performance tests on certain types of
First-Class Mail (letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national,
area, performance cluster, and city estimates, which are compared with the Postal Service’s service goals. The
results are released to the public quarterly by the consumer advocate.” Handbook PO-420, Small Plant Best
Practices Guidelines, November 1999, Appendix D, Page 40.
5
  Customer Experience Measurement System provides an end-to-end approach to assessing experience with the
Postal Service from the customers’ perspective, including quality of service received.
6
  Service standards are stated delivery performance goals for each mail class and product that are usually measured
in days for the period of time the Postal Service takes to handle mail from end-to-end (that is, from the point of entry
into the mail stream to delivery to the final destination). Upgrades to service standards after a consolidation indicate
that end-to-end mail handling takes less time than the established standard. Downgrades to service standards after a
consolidation indicate that end-to-end mail handling takes more time than the established standard.


                                                            7
Industry, CA Processing and Distribution Center                                             NO-AR-12-002
 Originating Mail Consolidation


EXFC Scores

   The Industry P&DC had higher overnight service scores than the Santa Ana P&DC
    in Quarter 4, FY 2010 and Quarter 1, FY 2011. However, in Quarter 2 and Quarter 3,
    FY 2011, the Santa Ana P&DC outperformed the Industry P&DC and exceeded the
    national goal in overnight service. The overnight service performance in Quarter 3,
    FY 2011 was 97.73 percent on-time for the Santa Ana P&DC and 96.36 percent on-
    time for the Industry P&DC (see Chart 3).

                     Chart 3: Santa Ana P&DC Versus Industry P&DC
                              Overnight EXFC Service Scores
                          Quarter 4, FY 2010–Quarter 3, FY 2011

             98

           97.5


             97


           96.5

             96


           95.5

             95
                       Q4 2010             Q1 2011            Q2 2011             Q3 2011


                              Sa nta Ana (CA) P&DC   Industry (CA) P&DC   Na ti onal Goal




   For 2-day service standards, the Santa Ana P&DC was above the national goal for
    the previous four quarters and the Industry P&DC exceeded the national goal in
    three of the previous four quarters (see Chart 4).




                                                     8
Industry, CA Processing and Distribution Center                                                   NO-AR-12-002
 Originating Mail Consolidation



                           Chart 4: Santa Ana P&DC Versus Industry P&DC
                                    2-Day EXFC Service Scores
                             Quarter 4, FY 2010–Quarter 3, FY 2011

          98


          97


          96


          95


          94


          93


          92
                     Q4 2010              Q1 2011                Q2 2011                Q3 2011

                          Sa nta Ana (CA) P&DC      Industry (CA) P&DC     Na ti onal Goal



   In Quarter 1 and Quarter 2, FY 2011, the Santa Ana P&DC and the Industry P&DC
    both had 3-day service scores below the national goal. In Quarter 3, however, both
    plants improved their scores and exceeded the national goal (see Chart 5).




                                                       9
Industry, CA Processing and Distribution Center                                                     NO-AR-12-002
 Originating Mail Consolidation


                       Chart 5: Santa Ana P&DC Versus Industry P&DC
                                 3-Day EXFC Service Scores
                            Quarter 4, FY 2010–Quarter 3, FY 2011

           96

           94

           92

           90

           88

           86

           84

           82
                      Q4 2010               Q1 2011                Q2 2011                Q3 2011

                            Sa nta Ana (CA) P&DC      Industry (CA) P&DC     Na ti onal Goal



Customer Experience Measurement System

The CEMS average residential scores 7 for the Industry P&DC and the Santa Ana P&DC
were above the national average in Quarter 3, FY 2011. In Quarter 4, FY 2010, both
P&DCs had scores above the national average, but fell below the national average in
Quarters 1 and 2, FY 2011 (see Chart 6).




7
 CEMS residential scores measure the experience with the Postal Service from a residential customers’ perspective.
The CEMS percentage is based on the number of residential customers that rank the Postal Service good, very good,
or excellent.


                                                        10
Industry, CA Processing and Distribution Center                               NO-AR-12-002
 Originating Mail Consolidation



                      Chart 6: Quarter 4, FY 2010–Quarter 3, FY 2011
                       Customer Experience Measurement Program
                                    Residential Scores




24-Hour Clock Indicators

The Santa Ana P&DC and the Industry P&DC generally outperformed the national
average in most 24-hour clock indicators. Both P&DCs scored 100 percent on the “clear
delivery point sequence mail second pass by 7 a.m.” indicator. The Santa Ana P&DC
and the Industry P&DC did not meet the performance indicator goal for “mail cancelled
by 8 p.m.” Both P&DCs also had difficulty meeting the national goal for “trips on time” to
delivery units. The additional mail volume from the consolidation could influence timely
delivery of mail. However, management stated sufficient additional sorting equipment
and transportation would be added to ensure that mail meets operational clearance
times. Consequently, the 24-hour clock indicators below established goals should not
negatively impact EXFC service scores for the gaining facility (see Table 2).




                                                  11
Industry, CA Processing and Distribution Center                                                        NO-AR-12-002
 Originating Mail Consolidation


                 Table 2: 24-Hour Clock Indicators (FY 2011 YTD, Week 39) 8
                                           SANTA               INDUSTRY         NATIONAL          NATIONAL
              Indicator                   ANA P&DC               P&DC           AVERAGE             GOAL
    Cancel 80 percent of                      61.8%             74.9%              67.2%               80%
    collection mail by 8 p.m.
    Clear outgoing primary mail by            96.1%             96.7%              93.9%              100%
    11 p.m.
    Clear outgoing secondary mail             93.0%             98.6%              90.4%              100%
    by 12 a.m.
    Clear Managed Mail Program                                    Not
                                              91.2%                                91.4%              100%
    (MMP) mail by 12 a.m.                                      applicable
    Assign mail to
    commercial/FedEx outgoing                 99.6%             99.9%              91.3%              100%
    mail by 2:30 a.m.
    Clear Delivery Point Sequence            100.0%             100.0%             98.9%              100%
    2nd Pass by 7 a.m.
    Trips on-time between                     84.8%             79.9%              78.9%             86.90%
    4–9 a.m. to delivery units

Service Standards

The AMP study identified a net of 22 upgrades and eight downgrades that will impact
customer service. Specifically:

     There were six upgrades and no downgrades to First-Class Mail® service standards.
      The upgrades were to overnight service and will impact approximately 1.4 percent of
      average daily volume or 43,733 mailpieces per day. The originating 2-day service
      commitment for First-Class Mail to San Diego, CA (ZIP Codes 919-926) will be
      upgraded to overnight service.

     There were two net service upgrades to Standard Mail and six net service upgrades
      to Periodicals.

     There will be no changes to service standards for Priority or Package Services mail. 9

Chart 7 shows the number of service standard changes by class of mail in the AMP
study.



8
  The 24-hour clock Indicators use a color coding system. Red indicates that attention is needed, yellow indicates that
performance is not yet at goal, and green show performance is at or approaching goal.
9
  The study incorrectly included 6 upgrades to Priority Mail service and 4 upgraded pairs in package services.
However, we found that the planned impacts on service standards will not affect Priority Mail or package services, as
these mail classes will still be worked at the Industry P&DC after the consolidation. During our audit, management
took corrective action and excluded these service impacts from the study. Consequently, no recommendations are
being made in this area.




                                                          12
Industry, CA Processing and Distribution Center                                    NO-AR-12-002
 Originating Mail Consolidation


                   Chart 7: Impact on Service Standards on All Mail Classes
                3-Digit ZIP Code Pair
                  Service Standard      Upgrades Downgrades Net Change
                       Impacts
                    First-Class Mail                     6         0          6

                       Priority Mail                     0         0          0

                        Periodicals                      10        4          6

                      Standard Mail                      6         4          2

                   Package Services                      0         0          0

                       All Classes                       22        8         14


Finally, the last pick up from the collection boxes at the Industry P&DC would be
changed from 8 p.m. to 7:30 p.m. The hours of operation for the business mail entry unit
and retail unit at the Industry P&DC will not change.

Employee Impact

The consolidation of the Industry P&DC’s originating letter and flat operations into the
Santa Ana P&DC will have a minimal impact on employees. The Santa Ana P&DC is
approximately 34 miles from the Industry P&DC and some employees may be
reassigned to the Santa Ana P&DC. Specifically, in mail processing operations (or
Function 1):

      There will be a reduction of 82 full-time equivalent (FTE) craft positions and
       four Executive and Administrative Schedule (EAS) positions at the Industry P&DC.

      The Santa Ana P&DC will gain 61 FTE craft positions and one EAS position.

      The consolidation would result in a net decrease of 21 FTE craft positions and
       three EAS positions. However, there are 223 employees (or almost 41 percent) at
       the Industry P&DC and 225 employees (or over 31 percent) at the Santa Ana P&DC
       eligible to retire. 10 With the number of employees already eligible for retirement, the
       number of positions impacted by a consolidation could be significantly minimized.




10
     Employees eligible to retire as of July 28, 2011.


                                                              13
Industry, CA Processing and Distribution Center                                 NO-AR-12-002
 Originating Mail Consolidation



Efficiency

The Santa Ana P&DC is more efficient than Industry P&DC. For example, in FY 2010,
the Santa Ana P&DC’s FHP productivity was 1,138 pieces per workhour compared to
the Industry P&DC’s productivity of 1,034 pieces per workhour. Even though both
facilities improved FHP productivity through Quarter 3, FY 2011, 11 with Santa Ana
P&DC’s FHP productivity of 1,296 pieces per workhour and Industry P&DC’s FHP
productivity of 1,097 pieces per workhour, the Santa Ana P&DC was still more efficient
(see Illustration 6).

                    Illustration 6: Employees idle due to lack of mail volume
                                on the dock at the Industry P&DC.




                      Source: OIG photograph taken July 27, 2011 at 4:37 p.m.

When compared to similar-sized facilities, both the Santa Ana and Industry P&DCs
achieved productivity levels above the average for their respective groups. For example,
the Santa Ana P&DC FHP productivity of 1,138 pieces per workhour was above the
group average of 1,024 pieces per workhour, and Industry P&DC’s FHP productivity of
1,034 pieces per workhour was above the group average of 1,004 pieces per workhour.

Saturday Consolidation Effect

The Santa Ana P&DC has successfully processed all Industry P&DC originating mail on
Saturdays since Quarter 1, FY 2000, over 11 years ago, with no capacity issues. The
docks at Santa Ana were not congested on Saturday and trucks arrived partially empty
during our observations (see Illustrations 7 and 8).

11
     Quarter 3 of FY 2011 ending June 30, 2011.


                                                  14
Industry, CA Processing and Distribution Center                             NO-AR-12-002
 Originating Mail Consolidation



                              Illustration 7: Empty dock at the
                        Santa Ana P&DC on Saturday, July 30, 2011;
                         employees waited for the last two trucks.




                  Source: OIG photograph taken July 30, 2011 at 7:45 p.m.

                               Illustration 8: Santa Ana P&DC
                             The last Industry P&DC truck arrived
                                 more than 50 percent empty.




                  Source: OIG photograph taken July 30, 2011 at 8:15 p.m.




                                                  15
Industry, CA Processing and Distribution Center                         NO-AR-12-002
 Originating Mail Consolidation


Management has maintained Saturday service scores with minimum variation when
compared to rest of weekdays in FY 2010 and Quarters 1-3, FY 2011 (see Charts 8
and 9).

                 Chart 8: EXFC Service Scores by Day of Week FY 2010




         Chart 9: EXFC Service Scores by Day of Week Quarters 1-3, FY 2011




                                                  16
Industry, CA Processing and Distribution Center                              NO-AR-12-002
 Originating Mail Consolidation


Cost Savings

Cost savings will primarily result from workhour reductions. The Postal Service
estimated the annual cost savings from the consolidation to be $1,321,651 taking into
account workhours, maintenance, transportation, and equipment costs. The U.S. Postal
Service Office of Inspector General (OIG) agreed with this estimate. Chart 10 provides a
breakdown and comparison of cost savings in the first year.

               Chart 10: Cost Savings Breakdown and Comparison
                                              AMP
              Savings/Cost                   Study   OIG Analysis
              Mail Processing Craft       $1,632,220  $1,632,220
              Workhour Savings
              Non-Mail                         0           0
              Processing/Management
              Management Workhour           357,225     357,225
              Savings
              Transportation Costs         (980,290)   (980,290)
              Maintenance Savings           312,496     312,496
              Space Costs                      0           0
              Total Annual Savings         1,321,651   1,321,651
              Total One-Time Costs         (202,968)  (202,968)
              Total First Year Savings    $1,118,683  $1,118,683
              Note: Red numbers in the chart indicate a cost.

AMP Guidelines

The Postal Service complied with stakeholder communication policies and procedures
and the AMP guidelines were generally followed. Only one of the AMP study steps was
not completed within the established timeframe. Not meeting this timeframe did not
adversely affect the consolidation determination process. See Chart 11 for a timeline of
events.




                                                   17
Industry, CA Processing and Distribution Center                                                           NO-AR-12-002
 Originating Mail Consolidation



                                     Chart 11: AMP Timeline of Events
                                                                                        Accomplished
                                                               Was Step                    Within
                 Event                        Date           Accomplished?               Timeframe?
Area vice president (AVP)                    9/24/10                  Yes                       Yes
notified district manager or
district manager notified AVP of
intent to conduct study.
Stakeholders notified on the                10/6/2010                 Yes                       Yes
intent to conduct study.
                                                                                                     12
District manager completed                 12/13/2010                 Yes                       No
feasibility study and submitted to
AVP within 2 months of
notification to conduct study.
District manager held public                1/26/2010                 Yes                       Yes
input meeting within 45 days
after study submitted to AVP.
District manager summarized                 1/26/2011                 Yes                       Yes
information from public meeting
and written comments within
15 days after meeting.
The AVP and headquarters vice               3/25/2011                 Yes                       Yes
president reviewed the feasibility
study within 60 days from the
time the study is submitted to the
AVP.
The AVP approved study after                 4/5/2011                 Yes                       Yes
finalized worksheets were
approved by area and
headquarters and submitted
study to senior vice president
(SVP), Operations.
The SVP, Operations, approved               5/16/2011                 Yes                       Yes
study within 2 weeks of receipt
from the AVP.




12
     This step was completed 19 days late but did not adversely affect the consolidation study process.


                                                            18
Industry, CA Processing and Distribution Center                               NO-AR-12-002
 Originating Mail Consolidation


Management’s Comments

Management agreed with our finding that there is a business case to support
consolidation of originating letter and flat mail processing operations from the Industry,
CA P&DC into the Santa Ana, CA P&DC. See Appendix C for management’s comments
in their entirety.

Evaluation of Management’s Comments

Although the report does not contain any recommendations, the U.S. Postal Service
OIG considers management’s comments responsive.




                                                  19
Industry, CA Processing and Distribution Center                                                 NO-AR-12-002
 Originating Mail Consolidation


                               Appendix A: Additional Information

Background

The U.S. Postal Service ended Quarter 3, FY 2011 (April 1-June 30) with a net loss of
$3.1 billion, compared to a net loss of $3.5 billion for the same period in FY 2010. Total
mail volume declined to 39.8 billion pieces for the quarter, compared to 40.9 billion
pieces in Quarter 3, FY 2010. Postal Service Quarter 3 revenue reflects the anemic
state of the economy during the past 3 months. Additionally, the growth in electronic
communications continues to erode core First-Class Mail volume. Net losses for the
9 months ending June 30 amount to $5.7 billion in 2011 compared to $5.4 billion in
2010.

Even with significant cost reductions and revenue growth initiatives, current financial
projections indicate the Postal Service will have a cash shortfall and will have reached
its statutory borrowing limit by the end of the fiscal year. Absent substantial legislative
change, the Postal Service will be forced to default on payments to the federal
government. “We continue to take aggressive actions to reduce costs and bring the size
of our infrastructure into alignment with reduced customer demand,” says postmaster
general and CEO, Patrick Donahoe.

In testimony before Congress, 13 the U.S. Government Accountability Office (GAO) said
action is urgently needed to facilitate the Postal Service’s financial viability, as it cannot
support its current level of service and operations. Congress, the Postal Service, the
administration, and stakeholders need to agree on a package of actions to restore the
Postal Service’s financial viability and take steps to modernize and restructure it. The
Postal Service needs to become a leaner, more flexible organization, so that it can
operate more efficiently, control costs, keep rates affordable, and meet customers’
changing needs. Postal Service operations, networks, and workforce need to be
realigned with the changes in mail usage and customer behavior, as the Postal Service
now has costly excess capacity.

Title 39 U.S.C., § 101, Part 1, Chapter 1, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas.” Further, the
September 2005 Postal Service Strategic Transformation Plan states, “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

This report responds to a request from U.S. Representatives Grace F. Napolitano
(CA-38), Judy Chu (CA-32), and Adam Schiff (CA-29) to independently review the
consolidation of originating letter and flat mail processing operations from the Industry

13
  GAO-11-428T, testimony before the Subcommittee on Federal Workforce, U.S. Postal Service and Labor Policy,
Committee on Oversight and Government Reform, House of Representatives, dated March 2, 2011.


                                                      20
Industry, CA Processing and Distribution Center                              NO-AR-12-002
 Originating Mail Consolidation


P&DC into the Santa Ana P&DC. The representative’s concerns included whether
savings will be realized and service levels will be maintained.

This consolidation would move the originating letter and flat mail from Industry P&DC to
the Santa Ana P&DC. According to the AMP study, approximately 168 million
originating mailpieces would be transferred to the Santa Ana P&DC for processing. The
Industry P&DC and the Santa Ana P&DC are approximately 34 miles apart and are in
the Santa Ana District in the Pacific Area (see Map 1).

                  Map 1: Districts within the Postal Service Pacific Area




Objectives, Scope, and Methodology

Our audit objectives were to determine whether a business case exists to support the
consolidation of the originating letter and flat mail processing operations from the
Industry P&DC into the Santa Ana P&DC and whether AMP guidelines were followed.
We reviewed data from July 1, 2009, to June 30, 2010, to analyze potential efficiencies
for both plants as well as capacity at the Santa Ana P&DC. Additionally, we reviewed
service scores from Quarter 4, FY 2010 through Quarter 3, FY 2011. We also estimated
the costs and savings from this analysis. We conducted observations at both sites
during July 2011 and interviewed Postal Service management.

We used computer-processed data from the following systems:

   CEMS
   Electronic Facilities Management System
   Enterprise Data Warehouse


                                                  21
Industry, CA Processing and Distribution Center                             NO-AR-12-002
 Originating Mail Consolidation


   Web Complement Information System
   Web End-of-Run

We conducted this performance audit from June through October 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 13, 2011, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined the data were sufficiently reliable for the
purposes of this report.




                                                  22
  Industry, CA Processing and Distribution Center                                        NO-AR-12-002
   Originating Mail Consolidation


  Prior Audit Coverage

                                               Final
                          Report              Report      Monetary
  Report Title            Number               Date        Impact              Report Results
Area Mail               EN-AR-09-001          2/4/2009        N/A        Management agreed with our
Processing                                                               recommendation to add
Communications                                                           employee input notifications but
                                                                         disagreed with the
                                                                         recommendation to explore
                                                                         additional communication
                                                                         channels.
Canton                  NO-AR-09-011         9/22/2009        N/A        We made no recommendations.
Processing and
Distribution Facility
Outgoing Mail
Consolidation
New Castle              NO-AR-10-002          2/1/2010        N/A        We made no recommendations.
Processing and
Distribution Facility
Outgoing Mail
Consolidation
Manasota                EN-AR-10-003         2/12/2010        N/A        Management agreed with our
Processing and                                                           recommendations.
Distribution Center
Lakeland                EN-AR-10-004         2/12/2010        N/A        We made no recommendations.
Processing and
Distribution Center
Consolidation
Dallas Processing       NO-AR-10-003         2/24/2010    $114,000,000   Management agreed with
and Distribution                                                         monetary impact and the
Center Outgoing                                                          recommendations.
Mail Consolidation
Consolidation of        NO-AR-10-007          7/2/2010        N/A        Management agreed with the
Lima Processing &                                                        recommendations.
Distribution Facility
Mail Operations
Into the Toledo
Processing &
Distribution Center
Charlottesville         NO-AR-10-008          8/3/2010        N/A        We made no recommendations.
Processing and
Distribution Facility
Consolidation
Review of Wilkes-       NO-AR-11-001         10/4/2010        N/A        We made no recommendations.
Barre, PA
Processing and
Distribution Facility
Consolidation




                                                     23
  Industry, CA Processing and Distribution Center                                         NO-AR-12-002
   Originating Mail Consolidation


Marysville, CA           NO-AR-11-002       11/23/2010        N/A        We made no recommendations.
Processing and
Distribution Facility
Consolidation
Houston, TX              NO-AR-11-004       12/14/2010    $189,744,682   Management agreed with the
Processing and                                                           recommendations.
Distribution Center
Mail Consolidation
Columbus, GA             NO-AR-11-005        2/14/2011        N/A        We made no recommendations.
Customer Service
Mail Processing
Center Originating
Mail Consolidation
Implementation of        EN-AR-11-004        3/31/2011     $105,125      Management agreed with the
Lima, OH to                                                              recommendations.
Toledo, OH Area
Mail Processing
Consolidation
Assessment of            NO-MA-11-004        5/20/2011    $647,586,823   Management agreed they could
Overall Plant                                                            improve operational efficiency by
Efficiency 2011                                                          reducing more than 14 million
                                                                         workhours by the end of
                                                                         FY 2013. This would allow the
                                                                         Postal Service to achieve at least
                                                                         median productivity levels in the
                                                                         network and avoid costs of more
                                                                         than $647.5 million based on
                                                                         workhour savings for 1 year.
A Strategy for a        RARC-WP-11-006        7/6/2011        N/A        The Postal Service continues to
Future Mail                                                              make gradual progress in
Processing &                                                             rightsizing the network. In the
Transportation                                                           next 10 years, over half of the
Network                                                                  Postal Service work force will be
                                                                         eligible to retire and substantive
                                                                         restructuring with significant
                                                                         savings can occur with minimal
                                                                         relocations and layoffs. Very
                                                                         large portions of customers are
                                                                         open to relaxing existing service
                                                                         standards in exchange for
                                                                         achieving substantial economies.
Oshkosh, WI              NO-AR-11-006         7/29/11         N/A        Management agreed with
Processing and                                                           recommendation 1, stating they
Distribution Facility                                                    will re-evaluate the workroom
Consolidation                                                            floor space/layout and dock
                                                                         space. However, they disagreed
                                                                         with the logic used in our
                                                                         analysis of floor space needs,
                                                                         asserting the analysis was too
                                                                         high level. Management agreed
                                                                         with recommendation 2, stating
                                                                         they will reassess letter and flat
                                                                         processing machine capacity.



                                                     24
Industry, CA Processing and Distribution Center                NO-AR-12-002
 Originating Mail Consolidation


                           Appendix B: Management’s Comments




                                                  25
